<html>
<title> - THE FUTURE OF COAL: UTILIZING AMERICA'S ABUNDANT ENERGY RESOURCES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                     THE FUTURE OF COAL: UTILIZING 
                  AMERICA'S ABUNDANT ENERGY RESOURCES
=======================================================================


                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 25, 2013

                               __________

                           Serial No. 113-44

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
82-223                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                         Subcommittee on Energy

                  HON. CYNTHIA LUMMIS, Wyoming, Chair
RALPH M. HALL, Texas                 ERIC SWALWELL, California
FRANK D. LUCAS, Oklahoma             ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              JOSEPH KENNEDY III, Massachusetts
MICHAEL T. McCAUL, Texas             MARC VEASEY, Texas
RANDY HULTGREN, Illinois             MARK TAKANO, California
THOMAS MASSIE, Kentucky              ZOE LOFGREN, California
KEVIN CRAMER, North Dakota           DANIEL LIPINSKI, Illinois
RANDY WEBER, Texas                   EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas


                            C O N T E N T S

                        Thursday, July 25, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Cynthia Lummis, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    11

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    12
    Written Statement............................................    12

Statement by Representative Eric Swalwell, Ranking Minority 
  Member, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    12
    Written Statement............................................    13

                               Witnesses:

Mr. Chris Smith, Acting Assistant Secretary for Fossil Energy, 
  Department of Energy
    Oral Statement...............................................    15
    Written Statement............................................    17

Mr. Ben Yamagata, Executive Director, Coal Utilization Research 
  Council
    Oral Statement...............................................    31
    Written Statement............................................    33

    Mr. Don Collins, Chief Executive Officer, Western Research 
      Institute..................................................
    Oral Statement...............................................    55
    Written Statement............................................    57

Ms. Judi Greenwald, Vice President, Center for Climate and Energy 
  Solutions
    Oral Statement...............................................    96
    Written Statement............................................    98

Discussion.......................................................   104

             Appendix I: Answers to Post-Hearing Questions

Mr. Chris Smith, Acting Assistant Secretary for Fossil Energy, 
  Department of Energy...........................................   118

Mr. Ben Yamagata, Executive Director, Coal Utilization Research 
  Council........................................................   134

Mr. Don Collins, Chief Executive Officer, Western Research 
  Institute......................................................   139

            Appendix II: Additional Material for the Record

Submitted letter for the record by Representative Cynthia Lummis, 
  Chairman, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................   154

Department of Energy's International Energy Outlook charts 
  submitted by Representative Cynthia Lummis, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   157


                          THE FUTURE OF COAL:

                          UTILIZING AMERICA'S

                       ABUNDANT ENERGY RESOURCES

                              ----------                              


                        THURSDAY, JULY 25, 2013

                  House of Representatives,
                                     Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:36 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Cynthia 
Lummis [Chairwoman of the Subcommittee] presiding.


[GRAPHIC] [TIFF OMITTED] 



    Chairman Lummis. Good morning. Welcome to today's hearing 
titled ``The Future of Coal: Utilizing America's Abundant 
Energy Resources.'' And now the Subcommittee on Energy will 
come to order.
    In front of you are packets containing the written 
testimony, biographies and Truth in Testimony disclosures of 
today's witness panel. I now recognize myself for a five minute 
opening statement and then I will turn it over to my Ranking 
Member, Mr. Swalwell. Thank you all for being here, and we will 
have others trickling in as the morning goes on.
    Coal is of critical importance to the United States. From 
Thomas Edison's construction of the world's first electric 
power plant in 1892, through today, coal has led the way in 
enabling the enormous improvements to Americans' health and 
well-being. It remains our leading source of affordable and 
reliable electricity, providing a foundation for our national 
and economic security while directly supporting hundreds of 
thousands of jobs and powering industrial facilities that 
produce the inexpensive goods we too often take for granted so 
middle- and lower-income Americans can enjoy a higher standard 
of living and make their hard-earned dollars go farther.
    Rarely, however, has such a beneficial, life-improving 
resource upon which society depends been under such hostile 
attack. Adding injury to insult, this attack is being led by 
our own President. In 2008, President Obama boasted on the 
campaign trail that his policies would necessarily bankrupt any 
company that wanted to build a coal-fired power plant.
    Unfortunately, this is one campaign promise that the 
President appears determined to keep. Not only are his EPA 
power plant regulations effectively prohibiting new coal plants 
from being constructed, they are imposing massive costs on 
existing plants and forcing scores of shutdowns. For example, 
288 coal units in 32 states cited current and pending EPA 
regulations as a factor contributing to their expected closure.
    Senior members of the Obama Administration have readily 
acknowledged the negative impacts of these policies. For 
example, former DOE Deputy Assistant Secretary for Fossil 
Energy Jim Wood estimated that EPA rules could force up to--
excuse me--that EPA rules could force up to 70 gigawatts of 
coal offline, adding: ``Number one, electric rates are going to 
go up. Number two, whether or not construction jobs in the 
green industry are created, I think there are virtually no 
manufacturing jobs that are likely to be created from the 
replacement of coal. Three, transmission grid stability is 
likely to emerge as a major issue, both because of the 
shutdowns and because of the intermittency of renewables.''
    EPA is just one agency leading the war on coal. On Tuesday, 
the House Natural Resources Committee discussed the Department 
of Interior's anti-coal regulations that would restrict 
coalmining activities and result in thousands of lost jobs in 
the coalmining industry.
    Incredibly, the President is even attempting to limit the 
global use of coal by restricting international aid for it in 
developing countries, thus limiting access to the primary means 
through which those countries' citizens escape poverty.
    Even if the President were successful in his quest to 
eliminate all U.S. coal-fired power plants, any potential 
reductions in projected global warming would more than 
undertaken by global emission growth. China continues to build 
a coal plant a week, and global coal demand is projected to 
continue to grow significantly over the next half century, 
regardless of U.S. domestic policy.
    The purpose of today's hearing, and the challenge before us 
in this Subcommittee, is to apply these regulatory, economic 
and global realities to improve the focus and prioritization of 
DOE's coal related activities. To this end, I look forward to 
hearing more about the recently developed coal R&D roadmap and 
how it could help identify technology opportunities to increase 
efficiencies, reduce pollutants, minimize water consumption, 
and lower the cost of electricity.
    I am also eager to examine in more detail the truly 
innovative research underway at the Western Resources Institute 
in Wyoming. WRI serves as a model of how to bring together 
public, private and academic stakeholders to advance 
development and use of abundant and affordable energy supplies.
    [The prepared statement of Mrs. Lummis follows:]

       Prepared Statement of Subcommittee Chairman Cynthia Lummis

    Good morning and welcome to this morning's hearing titled The 
Future of Coal: Utilizing America's Abundant Energy Resources.
    Coal is of critical importance to the United States. Since the 
founding of our country, through Thomas Edison's construction of the 
world's first electric power plant in 1892, and continuing still today, 
coal has led the way in enabling the enormous improvements to 
Americans' health and well-being. It remains our leading source of 
affordable and reliable electricity, providing a foundation for our 
national and economic security while directly supporting hundreds of 
thousands of jobs and powering industrial facilities that produce the 
inexpensive goods we too often take for granted.
    Rarely, however, has such a beneficial, life-improving resource 
upon which society depends been under such hostile attack.
    Adding injury to insult, this attack is being led by our own 
President. In 2008, President Obama boasted on the campaign trail that 
his policies would ``necessarily bankrupt'' any company that wanted to 
build a coal-fired power plant.
    Unfortunately, this is one campaign promise that the President 
appears determined to keep. Not only are his EPA power plant 
regulations effectively prohibiting new coal plants from being 
constructed, they are imposing massive costs on existing plants and 
forcing scores of shutdowns. For example, 288 coal units in 32 states 
cited current and pending EPA regulations as a factor contributing to 
their expected closure.
    Senior members of the Obama Administration have readily 
acknowledged the negative impacts of these policies. For example, in 
2011, then-DOE Deputy Assistant Secretary for Fossil Energy Jim Wood 
estimated that up to EPA rules could force up to 70 gigawatts of coal 
offline, adding:

      ``Number one, electric rates are going to go up. Number two, 
whether or not construction jobs in the green industry are created, I 
think there are virtually no manufacturing jobs that are likely to be 
created from the replacement of coal. Three . transmission grid 
stability is likely to emerge as a major issue, both because of the 
shutdowns and because of the intermittency of renewables.''

    EPA is just one agency leading the war on coal. On Tuesday, the 
House Natural Resources Committee discussed the Department of 
Interior's anti-coal regulations that would restrict coal mining 
activities and result in thousands of lost jobs in the coal mining 
industry.
    Incredibly, the President is even attempting to limit the global 
use of coal by restricting international aid for it in developing 
countries, thus limiting access to the primary means through which 
those countries' citizens escape poverty.
    Even if the President were successful in his quest to eliminate all 
U.S. coal-fired power plants, any potential reductions to projected 
global warming would more than overtaken by global emissions growth. 
China continues to build a coal plant a week and global coal demand is 
projected to continue to grow significantly over the next half century, 
regardless of U.S. domestic policy.
    The purpose of today's hearing--and the challenge before us in this 
Subcommittee--is to apply these regulatory, economic, and global 
realities to improve the focus and prioritization of DOE's coal related 
activities. To this end, I look forward to hearing more about the 
recently developed coal R&D roadmap and how it could help identify 
technology opportunities to increase efficiencies, reduce pollutants, 
minimize water consumption, and lower the cost of electricity.
    I am also eager to examine in more detail the truly innovative 
research underway at the Western Resources Institute in Wyoming. WRI 
serves as a model of how to bring together public, private and academic 
stakeholders to advance development and use of abundant and affordable 
energy supplies.
    Thank you, and I now yield to Ranking Member Swalwell for his 
opening statement.

    Chairman Lummis. Thanks, and I now yield to Ranking Member 
Swalwell for his opening statement.
    Mr. Swalwell. Thank you, Chairman Lummis, and first, I ask 
unanimous consent that Ranking Member Johnson of the Full 
Committee, that her opening statement be entered into the 
record. She will not be able to be here today but has been a 
leader in this area, and I hope the Committee will accept that.
    Chairman Lummis. Accepted.
    [The prepared statement of Ms. Johnson follows:]

    Prepared Statement of Committee on Science, Space and Technology
                  Ranking Member Eddie Bernice Johnson

    Thank you, Chairman Lummis for holding this hearing today. I would 
also like to thank all the witnesses for coming in to discuss the 
future role of coal in the United States.
    I am pleased, in particular, to welcome Ms. Judi Greenwald, who 
will be able to tell us more about some important projects in the great 
State of Texas--where we have seen the value of coal energy, but also 
its negative impacts.
    Coal has been an abundant and important source of energy through 
much of our Nation's history, and that is why I support the Department 
of Energy's efforts to make our use of coal cleaner and more efficient 
even as we lay the foundation for a more sustainable energy future.
    I am not here to promote one industry over another. Instead, I 
believe we must promote policies that protect our environment, meet our 
energy needs, and keep Americans working.
    We must do more than just keep the lights on. We need to work 
towards an energy future that recognizes that our environment is 
changing, in part due to our past energy usage.
    Record droughts and severe storms are sadly becoming too common, 
but I and many of my colleagues here today stand determined to do 
everything we can to curb the man-made causes of climate change and 
give our future generations a sense of environmental security while 
still providing them with a strong economy.
    So I look forward to hearing from our witnesses today on what we 
are doing, and what still needs to be done, to ensure that our mature 
coal industry follows the lead of our vibrant renewable energy sector 
in developing the environmentally responsible energy sources of today, 
and tomorrow.

    Mr. Swalwell. Thank you, I also wanted to thank you for 
holding this hearing, and I want to thank the witnesses for 
their testimony today, and I am pleased also to welcome Ms. 
Judi Greenwald from the Center for Climate and Energy 
Solutions, a group that does a lot of work in Texas, the home 
state of our Full Committee Chairman Mr. Smith, our Ranking 
Member, Ms. Johnson, and my colleague on this Subcommittee, Mr. 
Veasey, and Mr. Veasey will introduce Ms. Greenwald in a 
moment.
    This morning before I came over here, I had some students 
in my office, just part of a constituent thing that we do about 
a couple times a month, and they asked where I was going and I 
told them I was going to this hearing on coal, and these are 
students from my district. They kind of had this puzzling look 
on their face, and I said yes, that is right, coal. You know, I 
know you are from California, we don't necessarily rely upon 
coal as our energy resource but the rest of the country and 
many places does, and I explained to them that we are at this 
point right now in our country where we are in a struggle and a 
pull, and we are trying to figure out where are we going to 
provide, how are we going to provide the future of our energy 
needs, and in California, we are proud that 20 percent of our 
electricity in 2009, the last study that was available, was 
provided by renewables. And so California has always seen 
ourselves as kind of leading the country forward and moving 
away from dirty fossil fuels that could hurt the environment 
and not be so good for our children or the future. But coal 
does have a place to play, and I am interested and have always 
agreed that the all-of-the-above approach is the way we should 
go, and wherever we can make it safe, we should make it happen, 
and I support the chair's interest in doing this.
    But I say that what the President talked about a couple 
weeks back with climate change was not a war on coal. In fact, 
I saw it as the opposite. I saw it as a retreat from coal, not 
a war on coal but an attempt for the United States to 
eventually one day hopefully pull out of coal and pull closer 
to more renewable, cleaner energy sources, and that is what I 
support. But until that day comes, I will continue to work with 
our chair to find a future of coal that is clean and good for 
our environment, and we should not ignore the possibilities 
available today as we continue to move and strive for the fuels 
of tomorrow. And programs like the National Enhanced Oil 
Recovery Initiative demonstrate their innovative capabilities 
of a mature coal industry that has long enjoyed Federal 
support. Carbon capture and storage and enhanced oil recovery 
are examples of important technologies that will help ensure 
that our present reliance on coal will not hinder our ability 
to move towards a cleaner, safer environment. These advances 
also support Americans working in these industries today, even 
as we lay the foundation for emerging energy technologies that 
will support the workforce of the future.
    So I look forward to working with you, Chair, on doing 
this, hearing from our witnesses and making progress in this 
area, and with that, I yield back the balance of my time.
    [The prepared statement of Mr. Swalwell follows:]

    Prepared Statement of Subcommittee Ranking Member Eric Swalwell
    Thank you, Chairman Lummis, for holding this hearing. I want to 
also thank the witnesses for their testimony and for being here to 
answer our questions today. I am pleased to welcome Ms. Judi Greenwald, 
from the Center for Climate and Energy Solutions, a group that does a 
lot of work in Texas, the home state of our Full Committee Chairman Mr. 
Smith, our Ranking Member Ms. Johnson, and my colleague on this 
Subcommittee, Mr. Veasey.
    This hearing is an opportunity to demonstrate the value of a true 
``all-of-the-above'' approach to energy production, which has to 
include taking the necessary steps to make existing fuel technologies 
cleaner and more efficient. I am a strong supporter of the policies 
that have helped my state of California see growth in the solar and 
wind energy sectors, which provide clean energy to millions while 
meeting the job demands of a growing workforce. However, we should not 
ignore the possibilities available today as we move towards the fuels 
of tomorrow.
    Programs like the National Enhanced Oil Recovery Initiative 
demonstrate the innovative capabilities of a mature coal industry that 
has long enjoyed federal support. Carbon capture and storage and 
enhanced oil recovery are examples of important technologies that will 
help ensure that our present reliance on coal will not hinder our 
ability to move towards a cleaner, safer environment. These advances 
also support Americans working in these industries today, even as we 
lay the foundation for emerging energy technologies that will support 
the workforce of the future.
    I look forward to learning more from our witnesses about progress 
being made in this area, and with that, I yield back the balance of my 
time.

    Chairman Lummis. Thank you, Mr. Swalwell.
    We have not seen the chairman of the Full Committee, Mr. 
Smith, come in. We have accepted the statement of the Ranking 
Member of the Full Committee. If there are Members who wish to 
submit additional opening statements, your statements will be 
added to the record at this point. Thank you. We will begin 
then.
    I would like to introduce our witnesses, and I will defer 
to Mr. Veasey when he arrives--excellent. Your opportunity to 
introduce Ms. Greenwald will be occurring shortly.
    Our first witness toady is Chris Smith, Acting Assistant 
Secretary for Fossil Energy at the Department of Energy. Mr. 
Smith was appointed in 2009 as Assistant Secretary for Fossil 
Energy's Office of Oil and Natural Gas. Prior to joining DOE, 
Mr. Smith spent 11 years with international oil companies 
focused on upstream business development and LNG trading.
    Our second witness is Ben Yamagata. Did I get that right, 
Mr. Yamagata?
    Mr. Yamagata. Yes, Madam Chair.
    Chairman Lummis. Thank you. Executive Director at the Coal 
Utilization Research Council. Mr. Yamagata is also a partner at 
Van Ness Feldman, where his practice encompasses energy, 
environment and natural resources. He has also served as 
Counsel and Staff Director for the Senate Energy and Natural 
Resources Subcommittee on Energy Research and Development.
    Our third witness is Don Collins, Chief Executive Officer 
at the Western Research Institute. Mr. Collins focuses on 
transitioning scientific and applied research into 
technologies. He has spent 29 years of experience in 
engineering, management of research and deploying of new 
technologies.
    And for today's final witness, Judi Greenwald, I yield to 
the gentleman from Texas, Mr. Veasey.
    Mr. Veasey. Thank you, Madam Chair, and before I introduce 
Ms. Greenwald, I would be remiss if I did not mention that Mr. 
Smith is from Fort Worth, my hometown in Texas, just outside of 
Dallas, and I am happy to have him on the panel today, and I 
wanted to introduce Judi Greenwald. Judi is the Vice President 
for Technology and Innovation at the Center for Climate and 
Energy Solutions. She oversees very many important aspects of 
that organization including the analysis and promotion of 
innovation in the major sectors that contribute to climate 
change including transportation, electric power, buildings and 
industry. In addition to her 30 years of working on 
environmental and energy policy, she also has a strong Texas 
connection and has worked with many organizations and 
individuals in our great state, and I want to welcome her here 
this morning.
    Thank you, Madam Chair.
    Chairman Lummis. Thank you, Mr. Veasey.
    And now we will go to our witnesses. As you may know, 
spoken testimony is limited to five minutes each after which 
the Members of the Committee will have five minutes each to ask 
questions.
    We welcome you here today, Mr. Smith. You are recognized 
first to present your testimony. My favorite boot store in all 
of America is in Fort Worth, and we are delighted to have a 
good Fort Worth native amongst us. So Mr. Smith, you are now 
recognized for five minutes.

                 TESTIMONY OF MR. CHRIS SMITH,

                   ACTING ASSISTANT SECRETARY

            FOR FOSSIL ENERGY, DEPARTMENT OF ENERGY

    Mr. Smith. Well, thank you, Chairwoman Lummis. Lots of Fort 
Worth references this morning, so I am happy with that.
    So thank you, Chairwoman, and thank you, Ranking Member 
Swalwell and Members of the Subcommittee, and I appreciate this 
opportunity to discuss Department of Energy's coal research and 
development activities.
    Recently, our Secretary, Secretary Ernie Moniz, announced 
an $8 billion draft loan guarantee solicitation to promote the 
early development and deployment of innovative fossil energy 
projects that reduce carbon emissions. This solicitation in 
addition to the $6 billion the Obama Administration has already 
committed to clean coal technologies reflects the President's 
commitment to an all-of-the-above strategy that embraces an 
energy mix of nuclear power, renewable energy sources and 
fossil fuel, including clean coal.
    The Department of Energy continues to play a leadership 
role in the development of clean coal technologies with a focus 
on carbon capture and storage, or CCS. The Clean Coal Research 
program, in partnership with the private sector, is focused on 
maximizing efficiency and environmental performance while 
minimizing the costs of these new technologies. In recent 
years, the program has been restructured to focus on clean coal 
technologies with carbon capture and sequestration. The program 
pursues the following two major strategies: first, capturing 
and storing greenhouse gases, and second, improving the 
efficiency of fossil energy systems.
    The Clean Coal Research program is addressing the key 
challenges that confront the development and deployment of 
clean coal technologies through research on cost-effective 
capture technologies, monitoring, verification and accounting 
technologies to ensure permanent storage and the development of 
advanced energy systems. To get there, we are pursuing these 
three technical pathways for carbon capture: post-combustion, 
pre-combustion and oxy-combustion. Research in these pathways 
is exploring a wide range of approaches that, coupled with 
advances in efficiency improvements and cost reductions from 
developments in gasification turbines, will help provide a 
technology base for the commercial deployment of CCS 
technologies.
    On the storage side, we have pursued projects to develop 
and design innovative advanced technology and protocols for the 
monitoring, verification, and accounting of CO<INF>2</INF> 
storage in geologic formations as well as simulating the 
behavior of geologically stored CO<INF>2</INF>. Our original 
carbon sequestration partnerships are an essential component of 
that effort. The program is currently in the development phase 
during which large-scale field testing involving at least 1 
million metric tons of CO<INF>2</INF> per project will be 
implemented. Several of these large-scale tests are currently 
underway, and one project has safely injected over 3.6 million 
metric tons and is being monitored for safe and permanent 
storage.
    The Department is implementing large-scale projects for 
their regional partnerships, the Clean Coal Power Initiative, 
FutureGen 2.0, and the Industrial Carbon Capture and Storage 
program. We currently have eight major CCS demonstration 
projects nationwide, and there have been important advances in 
several of them. For example, the Archer Daniels Midland ICCS 
project in Illinois will demonstrate an integrated system of 
CCS in an ethanol production plant. The project is under 
construction and is nearly 50 percent complete. FutureGen 2.0 
has successfully completed phase I, and phase II commenced in 
February of this year. The project is now focused on the 
preliminary design and engineering.
    Current demonstrations are focused on storing CO<INF>2</INF> 
in a variety of geologic formations including enhanced oil 
recovery. Enhanced oil recovery represents the most 
commercially attractive utilization option for CO<INF>2</INF> 
storage that could produce substantial quantities of oil while 
permanently storing CO<INF>2</INF> in geologic formations. 
There are currently six projects employing CO<INF>2</INF> EOR 
and two projects employing saline storage underway across the 
United States. And as with saline storage projects, CO<INF>2</INF> 
EOR projects will be subject to rigorous monitoring, 
verification, accounting procedures, and technologies to ensure 
their safety and effectiveness.
    Today, nearly three out of four coal-burning power plants 
in this country are equipped with technologies that can trace 
their roots back to the Department of Energy's advanced coal 
technology program. The Office of Fossil Energy's ongoing 
mission is to ensure that this important resource can be 
developed and utilized in an environmentally sensible way to 
strengthen our Nation's energy security, and I believe that our 
Clean Coal Research program demonstrates that we have the 
critical experience, expertise and capabilities, and the track 
record to meet this challenge.
    Madam Chairwoman and Members of the Committee, that 
completes my prepared statement, and I would be happy to answer 
any questions that you may have.
    [The prepared statement of Mr. Smith follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    
    Chairman Lummis. Thank you very much, Mr. Smith.
    I now recognize Mr. Yamagata to present his testimony.

                 TESTIMONY OF MR. BEN YAMAGATA,

                      EXECUTIVE DIRECTOR,

               COAL UTILIZATION RESEARCH COUNCIL

    Mr. Yamagata. Madam Chair, Ranking Member Swalwell, Members 
of the Subcommittee, thank you for giving me the opportunity to 
make these comments today. I will specifically focus my 
comments on the two subject areas you asked me to address by 
discussing four points.First, in describing to you, as you 
requested, our coal technology development roadmap done in 
conjunction with the Electric Power Research Institute, let me 
say we concluded that we can develop technologies that will 
achieve very high conversion efficiencies moving electricity 
generation from today's high of 39 or 40 percent to nearly 50 
percent. Following the same roadmap agenda will result in 
significant reductions in traditional air pollutants, leading 
ultimately to coal-fueled plants that really today are very 
clean but will be nearly emissions-free in the future. Since 
the 1970s, the DOE's coal R&D program and the work of the 
National Energy Technology Lab in collaboration with industry 
has, as the Assistant Secretary pointed out, now been installed 
on many of the coal units in this country. With DOE's support, 
we are confident that technology will be the pathway to also 
addressing CO<INF>2</INF> emissions from the use of coal.
    Second, you have asked if our roadmap might be a way of 
examining the prioritization of DOE's R&D activities. Let me 
start by stating our general agreement with DOE's R&D portfolio 
and note industry's successful collaboration with the Fossil 
Energy Office. Where we see need for added emphasis, CCS should 
not be the singular focus of the government's R&D supported 
efforts. We recommend an emphasis also on technology 
development to address water use and discharge from power 
plants and increased support for high-temperature-materials 
development. These advanced materials are key to increasing the 
efficiency of coal conversion to electricity. DOE may need to 
focus more attention now on technologies that are truly 
transformational, and that move beyond simply adding a series 
of improved control technologies to power plant platforms that 
generate electricity from power-generating technology now 
itself several decades old. And finally, an inquiry should be 
made whether the pace of technology development pursued by DOE 
fits the age profile of the country's existing coal fleet. We 
might require commercially available technology for retrofit of 
coal units or the replacement of coal units by the early 2020s 
so that technology can be used in the later 2020s or 2030s. 
DOE's technology timelines could be too late by several years. 
Also, the President's Fiscal Year 2014 coal R&D budget request 
is nearly $100 million less than what we believe is required.
    Third, the added cost of new and pending environmental 
regulations, uncertainty over future regulations and market 
competition from abundant natural gas have led to projections 
that perhaps 60 to 80 gigawatts of older coal plants--that is 
20 to 25 percent of the existing fleet--will be retired in the 
next several years. Anticipated CO<INF>2</INF> requirements 
could dramatically increase the number of those requirements. 
CURC has commented that the original EPA CO<INF>2</INF> 
proposal for new coal plants requiring those plants to meet a 
defined CO<INF>2</INF> standard that can only be met with the 
installation of carbon capture technology that is not 
commercially available nor economic today, this is not a 
realistic standard. We will await the re-proposal of this rule, 
but if it is still predicated upon technology that is not 
commercially available, our concerns remain. Simply directing 
or assuming the existence of technology will not make it so.
    And point four, you asked that we comment upon research 
activities that should be pursued in the near, mid and long 
term. CURC is developing a three-part program that is organized 
around the proposition that technology development is a 
positive pathway to the sustained and increased use of coal but 
our program is being developed through the prism of defining 
benefits to the Nation from coal use. In the near term, we are 
considering recommendations to undertake the technology R&D to 
address challenges to the existing baseload fleet, which is now 
a cycling fleet, while simultaneously confronting ever-more 
stringent air regulations. In the medium term, we need to 
ensure that the DOE demonstrations currently underway are 
successful. An additional demonstration program is needed to 
encourage the construction of world-class, coal-fueled 
generation plants meeting very high efficiency and emission 
control standards and committing those projects to retrofit 
with carbon capture technology when that technology is 
commercially available. Also, we would recommend a program to 
use captured CO<INF>2</INF> from coal-using facilities for 
enhanced oil recovery. We are looking for ways to accomplish 
our mid-term program without new government spending. Progress 
is being made on this front. And finally, in the long term, 
government in partnership with industry needs to pursue a 
targeted R&D program.
    Thank you for your time, and I will await your questions.
    [The prepared statement of Mr. Yamagata follows:]
    [GRAPHIC] [TIFF OMITTED] 82223.023
    
    [GRAPHIC] [TIFF OMITTED] 82223.024
    
    [GRAPHIC] [TIFF OMITTED] 82223.025
    
    [GRAPHIC] [TIFF OMITTED] 82223.026
    
    [GRAPHIC] [TIFF OMITTED] 82223.027
    
    [GRAPHIC] [TIFF OMITTED] 82223.028
    
    [GRAPHIC] [TIFF OMITTED] 82223.029
    
    [GRAPHIC] [TIFF OMITTED] 82223.030
    
    [GRAPHIC] [TIFF OMITTED] 82223.031
    
    [GRAPHIC] [TIFF OMITTED] 82223.032
    
    [GRAPHIC] [TIFF OMITTED] 82223.033
    
    [GRAPHIC] [TIFF OMITTED] 82223.034
    
    [GRAPHIC] [TIFF OMITTED] 82223.035
    
    [GRAPHIC] [TIFF OMITTED] 82223.036
    
    [GRAPHIC] [TIFF OMITTED] 82223.037
    
    [GRAPHIC] [TIFF OMITTED] 82223.038
    
    [GRAPHIC] [TIFF OMITTED] 82223.039
    
    [GRAPHIC] [TIFF OMITTED] 82223.040
    
    [GRAPHIC] [TIFF OMITTED] 82223.041
    
    [GRAPHIC] [TIFF OMITTED] 82223.042
    
    [GRAPHIC] [TIFF OMITTED] 82223.043
    
    [GRAPHIC] [TIFF OMITTED] 82223.044
    
    Chairman Lummis. Thank you, Mr. Yamagata.
    I now recognize Mr. Collins for five minutes.

                 TESTIMONY OF MR. DON COLLINS,

                    CHIEF EXECUTIVE OFFICER,

                   WESTERN RESEARCH INSTITUTE

    Mr. Collins. Good morning, Chairman Lummis, Ranking Member 
Swalwell and Members of the Subcommittee. I am Don Collins from 
the Western Research Institute located in Laramie, Wyoming. On 
behalf of everyone at WRI, we deeply appreciate the opportunity 
to provide testimony on the vital role of innovative scientific 
research and technology development that can assure a diverse 
energy resource portfolio that utilizes our Nation's abundant 
coal resources efficiently and environmentally responsibly.
    WRI is a multidisciplinary scientific research and 
technology development nonprofit institute currently 
specializing in bioenergy, natural gas, emission capture, 
environmental monitoring and remediation, asphalt chemistry, 
heavy and ultra-heavy oils such as Canadian oil sands, as well 
as clean coal power, gasification and conversion to 
transportation fuels, hydrogen and industrial chemicals. So I 
will summarize my testimony and request that my testimony be 
entered into the record.
    Our view is that R&D work is successful when viable 
technologies are deployed to the betterment of our country. So 
in my written testimony, I highlight opportunities to utilize 
carbon to achieve energy recycling for living in a carbon-rich 
world: utilize low-rank coal as an untapped water-rich 
resource, increase plant efficiencies to lower emissions of 
hazardous air pollutants and lower water consumption, leverage 
existing coal power plant investments to also clean up eco-
legacy contamination levels such as for mercury, create a 
diversified energy technology portfolio to best serve very 
local conditions, and resource availability across the United 
States.
    Based on WRI's experience and expertise, I recommend that 
Congress take some of the following actions: consider policies 
that allow exploring solutions for living in a carbon-rich 
world in addition to living in a carbon-constrained world; 
cultivate a national best portfolio strategy to leverage all 
energy resources and utilization technologies; formulate a 
flexible, integrated clean energy technology research portfolio 
and priorities that consider local and regional constraints; 
allocate funding to support the utilization of carbon dioxide 
to stimulate the transformation of this abundant compound from 
something to be avoided to a beneficial resource that can be 
used to increase chemical feedstocks, biofuels and support 
national energy self-sufficiency; allocate resources for 
research to support the sustainable and environmental safe use 
of fossil fuels, especially energy and water efficiency 
advancements in connection with the energy-water nexus; 
formulate a Federal leadership team to strategically plan 
advanced energy and water efficiency improvements and 
environmental impact reductions across the entire coal sector.
    In summary, at WRI, we take a portfolio approach to provide 
sustainable energy solutions. Our thinking approach will 
deliver cost efficiencies and environmental benefits with 
respect to utilization of coal. The many boom-and-bust cycles 
that we have experienced in the energy sector really are a 
function of the marketplace, but the way in which we can 
minimize the downside of this fact of life is through an 
aggressive, innovative partnership between industry, research 
entities and the Federal and state governments. This will 
ensure our energy technology portfolio will deliver benefits to 
the U.S. consumers and protect the environment.
    I would note, for example, that the State of Wyoming is 
implemented a long-term strategic plan to maximize the entire 
energy portfolio within Wyoming, utilizing CO<INF>2</INF> for 
enhanced oil recovery and preparing for long-term storage of 
CO<INF>2</INF>. These are precisely the kind of activities the 
Federal Government should encourage. Making the best use of 
limited financial investments in addition to efficient 
utilization of all energy resources is key to achieving 
national sustainability goals, energy security and economic 
prosperity.
    In closing, a strong commitment to a portfolio approach 
that includes solutions for living in a carbon-rich world will 
facilitate innovation and sustainable economic growth that in 
turn strengthens U.S. competitiveness. This necessitates 
continued Federal funding of scientific research and 
technological development. It is essential to maximize the 
energy efficiency and productivity of our country in the most 
environmentally and economically sustainable ways.
    Again, I thank you for the opportunity to appear before 
you, and I would be pleased to answer any questions the 
Subcommittee may have.
    [The prepared statement of Mr. Collins follows:]

    [GRAPHIC] [TIFF OMITTED]


    
        Chairman Lummis. Thank you, Mr. Collins.
    And now I recognize Ms. Greenwald to present her testimony. 
Good morning.

        TESTIMONY OF MS. JUDI GREENWALD, VICE PRESIDENT,

            CENTER FOR CLIMATE AND ENERGY SOLUTIONS

    Ms. Greenwald. Thank you. Madam Chairman, Congressman 
Swalwell, and Members of the Subcommittee, thank you for the 
opportunity to testify, and thank you, Congressman Veasey, for 
that kind introduction.
    My name is Judi Greenwald, and I am the Vice President for 
Technology and Innovation at the Center for Climate and Energy 
Solutions. My testimony today will focus on the most important 
climate and energy solution that no one knows about. I will 
emphasize two main points.
    First, carbon capture and storage, or CCS, is a critical 
technology for addressing climate change while allowing 
continued reliance on fossil fuels. Second, carbon dioxide-
enhanced oil recovery, or CO<INF>2</INF> EOR, can advance CCS 
while boosting domestic oil production and creating and 
generating that Federal revenue.
    The United States and the rest of the world get 80 percent 
of our energy from coal, oil and gas, and our fossil fuel 
dependence is expected to continue for the foreseeable future. 
Carbon dioxide emissions from burning these fuels pose an 
enormous challenge. That is why we need CCS, a suite of 
technologies that capture CO<INF>2</INF> and stores it deep 
underground in geological formations. CCS can capture up to 90 
percent of emissions from power plant and industrial 
facilities, allowing coal and natural gas to remain part of our 
energy mix. CCS has been commercialized for certain industrial 
processes. However, CCS in other contexts, for example, coal 
and natural gas power plants is a relatively expensive 
technology that is just reaching maturity. The key challenge 
for CCS is to get a sufficient number of commercial-scale 
projects up and running to demonstrate the emerging 
technologies at scale and bring down their costs.
    The Department of Energy's role in CCS development has been 
and will remain critical. DOE is working with the private 
sector on the leading innovative CCS projects today including 
several coal-based power projects. Additional drivers will be 
needed, though, to help the next generation of CCS projects 
move forward. That is why CCS is being increasingly thought of 
as carbon capture utilization and storage, or CCUS.
    Utilizing captured carbon dioxide for enhanced oil 
recovery, or CO<INF>2</INF> EOR, could play a key role in the 
development of CCS. It also has the potential to increase 
American oil production by tens of billions of barrels while 
displacing imported oil and safely storing billions of tons of 
carbon emissions underground.
    Let me explain how this works. Even after conventional 
primary and secondary oil recovery, most of the oil in a 
typical field is left in the ground. Injecting carbon dioxide 
deep underground can make it possible to recover more oil and 
extend the field's life. The United States has been a global 
leader in CO<INF>2</INF> EOR for 40 years, and gets six percent 
of its domestic oil this way. While most CO<INF>2</INF> EOR 
activities occur in the Permian Basin of Texas, there are also 
projects in Wyoming, the Gulf Coast, Oklahoma and Michigan. 
Using existing technologies, CO<INF>2</INF> EOR could double or 
triple U.S. reserves. It could also store 10 to 20 billion tons 
of carbon dioxide, equivalent to five to ten years. worth of 
emissions from all U.S. coal-fired power plants. More advanced 
technologies could yield much higher production and CO<INF>2</INF> 
storage.
    Right now, most enhanced oil recovery is done using carbon 
dioxide that is already underground and that is ironically in 
short supply. By using captured manmade carbon dioxide, we can 
increase domestic oil production, promote economic development, 
create jobs, reduce carbon emissions, and drive innovation in 
CCS technology. Because of these multiple benefits, we have 
been able to bring together the National Enhanced Oil Recovery 
Initiative, or NEORI, a diverse coalition of industry, labor 
and environmental organization, and state officials. This 
coalition's consensus recommendations call for a Federal tax 
incentive to capture manmade CO<INF>2</INF> for EOR.
    In some regions, EOR operators are willing to pay upwards 
of $30 per ton for CO<INF>2</INF>. At the same time, industrial 
facilities and power plants are emitting billions of tons of 
CO<INF>2</INF> into the atmosphere as a waste. CO<INF>2</INF> 
EOR offers the opportunity to transform this waste into a 
marketable commodity and transform an environmental problem 
into an energy production solution. By combining private EOR 
operators willing to pay for CO<INF>2</INF> with a tax 
incentive, society would leverage its public investment. Tax 
incentives for carbon dioxide-enhanced oil recovery would more 
than pay for themselves within ten years by increasing domestic 
oil production and associated taxable oil revenues. Federal 
revenue would exceed the fiscal cost of new incentives by more 
than $100 billion over 40 years.
    To summarize, CCS is a critical technology for reconciling 
our continued dependence on fossil fuels with the imperative to 
protect the global climate. Our best hope at the moment for 
advancing CCS is carbon capture utilization and storage, or 
CCUS, and the best current example of that is enhanced oil 
recovery. Solving our climate and energy problems will require 
a portfolio of technologies, and all must be pursued 
vigorously. But we are focusing here today on CO<INF>2</INF> 
EOR because it is the most important climate and energy 
solution that no one knows about.
    Thank you for your attention. I look forward to your 
questions and to working with the Subcommittee and the Congress 
to advance this critical technology.
    [The prepared statement of Ms. Greenwald follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Lummis. Thank you, Ms. Greenwald, and thank you, 
panel.
    Now, if we would limit our questions to four minutes each, 
we could probably--everybody in this room could get to ask 
questions before our vote series. If there is no objection to 
going with four minutes instead of five, then so ordered, and 
we will start--the Chair now recognizes herself for four 
minutes. Thank you, panel, for being here. I am going to start 
with Mr. Collins.
    In your testimony, you talked about integrated portfolio 
approaches to maximize benefits of coal. Could you tell us 
which of those technologies you believe are the most promising 
to improve energy utilization?
    Mr. Collins. Yes, Madam Chairman. We have a process called 
WRITECoal that will extract the water out of low-rank coals 
that in the past has really been a missed opportunity. Low-rank 
coal, especially out of Wyoming, has been beneficial for 
reducing sulfur emissions because of its low sulfur content, 
and the water has just gone up the smokestack along with other 
emissions. By extracting that water at the front end, we can 
utilize that water in the power plant and reduce local water 
consumption in communities that are water stressed by about 50 
to 60 percent for the makeup water, especially in air-cooled 
systems. So we see that as a second value of low-rank coals 
that were delivering water with the energy resource.
    A second technology is a chemoautotrophic bacterial process 
that will operate in the dark 24 hours a day to consume 
CO<INF>2</INF> and make a bio crude oil that can be used to 
make synthetic diesel fuel, for instance, and perhaps even 
other longer-chain carbon molecules like biopharmaceuticals and 
turn that carbon in our coal into an additional economic 
resource by using it more than once, and that is our view to 
look at recycling energy.
    Chairman Lummis. Thank you, Mr. Collins.
    Now, Mr. Yamagata and Ms. Greenwald, I have a question 
about the fossil energy loan guarantees, and they were--monies 
were directed under the Energy Policy Act of 2005 to advance 
technologies and facilitate commercial application. Four 
projects were selected for further evaluation in July of 2009, 
and to date, no final loan guarantees have been issued. Your 
groups have focused in part on these loan guarantees and their 
status. To your knowledge, where are they in the DOE process? 
Mr. Yamagata, any response there?
    Mr. Yamagata. Madam Chair, frankly, I don't know where they 
are. We know that the process that was started several years 
ago in which DOE actually accepted--because that is the 
process, the applications--and the DOE at least as we 
understand it, the Secretary or his designee can stop that 
process at any point in time but we don't know that that has 
ever happened with respect to those four projects. So the 
answer at least in short is, we are not quite certain where 
those projects are. They don't appear to have been rejected.
    Chairman Lummis. Ms. Greenwald, do you know?
    Ms. Greenwald. We don't know either.
    Chairman Lummis. Thank you.
    Mr. Smith, I might ask, has DOE taken any steps to advance 
these projects?
    Mr. Smith. Thank you for the question, Madam Chairwoman. So 
I manage the Office of Fossil Energy, which oversees all the 
research and development that is done to advance fossil energy 
technologies. I don't have oversight over the loan guarantee 
program. I do know that the projects that were selected in that 
first round focused primarily on CTL technologies. We have 
recently announced an additional level of funding of $8 
billion, which is another series of potential loan guarantees 
that would have a very wide range of applications for fossil 
energy technologies. We have taken the unprecedented step of 
offering that for public comment so we can get feedback back 
from industry, back from states, back from key stakeholders so 
that we can structure that in a way that has the highest 
probability of attracting the right type of participants and 
make sure that we are successful moving that forward. So that 
is the process that we are pushing for in real time right now.
    Chairman Lummis. Thank you, panel.
    And now I yield four minutes to the Ranking Member, Mr. 
Swalwell.
    Mr. Swalwell. Thank you, Madam Chair.
    For our witnesses, it is pretty evident now after a number 
of scientific studies that 97 percent of scientists agree that 
human activities are causing climate change, and so I want to 
ask each one of you whether you agree or disagree with the 97 
percent of scientists who believe in that.
    Mr. Smith, do you agree or disagree?
    Mr. Smith. We agree that most of our programs are focused 
very strictly on reducing CO<INF>2</INF> emissions and 
greenhouse gas emissions.
    Mr. Swalwell. But do you agree that climate change is 
caused by human activities?
    Mr. Smith. We do agree that this is something we need to 
address, so we agree.
    Mr. Swalwell. Mr. Yamagata, agree or disagree?
    Mr. Yamagata. You are not going to like this answer. We 
don't----
    Mr. Swalwell. Is it agree or disagree?
    Mr. Yamagata. We don't take a position on that issue. It is 
not something that we want to deal with. What we want to deal 
with is if public policy determines that this is an issue, we 
have got to have the technologies available to address it.
    Mr. Swalwell. How about you personally, Mr. Yamagata? Do 
you agree or disagree?
    Mr. Yamagata. I think there is a lot of information out 
there that suggests so.
    Mr. Swalwell. Mr. Collins, do you agree or disagree?
    Mr. Collins. Thank you, Congressman Swalwell. I would say 
you probably won't like my answer either. There are multiple 
contributions to what people consider climate change, and it is 
not all just man made anthropogenic sources. So that statement, 
in my mind, is incomplete, so that is why I cannot agree to the 
question.
    Mr. Swalwell. Do you agree that human activity has played a 
role, a substantial role, in climate change?
    Mr. Collins. Human activity releases a lot of energy into 
the environment that contributes to the warming, but I also 
view that CO<INF>2</INF> is an untapped resource and we need to 
start thinking about how we utilize that. We live in a carbon-
rich world. You and I are carbon-based life forms. To consider 
living in a carbon-free world to me sounds like suicide.
    Mr. Swalwell. And Ms. Greenwald, do you agree or agree with 
the 97 percent?
    Ms. Greenwald. We agree. I focus on the technology solution 
side of our organization but we do have staff that focuses on 
science, and we do work in that area and do agree with the 
scientific consensus.
    Mr. Swalwell. Great. Thanks, Ms. Greenwald.
    Mr. Smith, over the history of research to reduce the 
environmental impacts of coal-fired power plants and to improve 
their efficiency, where has the bulk of the innovation taken 
place? Has that been in the private sector or has it been at 
the national laboratories or our research universities?
    Mr. Smith. Well, thank you for the question, and without 
making a direct comparison, I would say that this is an area in 
which it is critical for the government to be involved. We work 
very closely with private industry in all the major 
demonstrations that we are pushing out. We need to ensure that 
we have got scientists that work in national laboratories 
working alongside the practitioners in the field in industry, 
so that is always going to be a collaborative effort. That is 
the only way to move forward.
    Mr. Swalwell. And have Federal regulations played a role in 
incentivizing these innovations, and if so, how?
    Mr. Smith. Well, first of all, I think it is important that 
we fund critical programs that allow us to do this work. If you 
look at the investments that we have made since the start of 
this Administration, we have made a significant investment in 
major demonstrations that came from the Recovery Act, and in 
every year of the President's budget over the last several 
years, we have made important, significant investments in 
carbon capture and sequestration that fund that government 
programs and allow us to work together with industry.
    Mr. Swalwell. Great, and I will yield back in the interest 
of allowing more questions from our colleagues.
    Chairman Lummis. I thank the gentleman. I now yield to the 
gentleman from Texas, Mr. Neugebauer, for four minutes.
    Mr. Neugebauer. Well, Madam Chairman, thank you for holding 
this important hearing.
    Mr. Smith, the Environmental Protection Agency is moving 
forward with greenhouse gas regulations on both new and 
existing coal-fired plants. In EPA's initial regulatory 
proposal for new plants released last year, the EPA rulemaking 
assumed that CCS technology would be commercially available 
within ten years of plant initiating operations. Do you agree 
that with this new proposed rule, which I understand is now 
under revision, would have basically effectively banned the 
construction of new coal plants without CCS?
    Mr. Smith. Well, thank you for the question, Congressman. I 
can't comment on the rule as it has not yet been published. It 
is in interagency review at the moment, and that is a process 
that is being managed centrally. What I can say is that the 
Department of Energy has an important role to play in terms of 
shaping that rule, and we believe it is critically important 
that we are working together with EPA and that we are working 
together with industry to ensure that these technologies are 
commercially ready, that they are being developed, that we are 
making the right investments, and that these innovations are 
created here in the United States so that we are creating that 
opportunity here for our country. So that is the role that the 
Department of Energy plays in that process.
    Mr. Neugebauer. Well, along those same lines, though, then 
would you agree that in order for CCS to be a part of the new 
coal plant that significant technical, legal, property rights 
and liability issues will have to be resolved?
    Mr. Smith. Congressman, I agree that there are myriad 
issues that need to be resolved, and that is the process that 
we are in real time going through. This is an important 
innovation that will allow us to achieve this mission.
    Mr. Neugebauer. So then with that in mind, what is the 
earliest time frame in which you can state with confidence that 
CCS will be commercially available for utility scale?
    Mr. Smith. Well, Mr. Congressman, I would state that 
currently, we know an awful lot about how to capture CO<INF>2</INF> 
and we know an awful lot about storing it. The work that we are 
going through right now is to ensure that we are continuing to 
push these costs down and that we are making it more and more 
affordable for broad-scale release. So I can't make a 
projection in terms of what exactly that cost curve is going to 
look like, but that is the process of innovation that we are 
going through now and we are making important strides in real 
time in that mission.
    Mr. Neugebauer. So I guess the question goes back to kind 
of where I started. If we can't get to that point, are we 
basically keeping new power plants from being brought online 
and potentially closing existing ones? The chairwoman mentioned 
some statistics of how many plants had been closed, so the 
vagueness of your answer leads me to believe that you are not 
sure whether this technology will be in place and that in fact 
would preclude bringing those plants online, wouldn't it?
    Mr. Smith. Well, coal is under stress from a number of 
factors including the emergence of natural gas that has pushed 
natural gas prices down, and natural gas has leapfrogged coal 
in a lot of areas in terms of how coal power plants get 
dispatched. That is a challenge, and it makes it difficult for 
these plants to move forward. What we are working on is making 
sure that we are not only focused on CCS, carbon capture and 
sequestration, and lowering those costs, but we are also 
working with industry to improve efficiencies, to improve 
processes, better sensors, better materials, to ensure that 
this important part of our energy mix continues to contribute 
to energy security in the future. It is--this is research 
activity. These are technological innovations. They don't have 
certainty, just as any research topic tends not to, but we are 
making investments to ensure that we are moving that forward 
and we do have high levels of confidence.
    Mr. Neugebauer. So would this be a true statement, that 
this Administration is not a big fan of coal?
    Mr. Smith. I would say that is categorically not a true 
statement. I mean, if you look at the investment that we have 
made since this Administration started, almost $6 billion 
invested in CCS technologies, greater efficiencies, better 
materials, better processes, more efficient turbines. These are 
all investments that we have made to ensure that this important 
source of domestic energy--coal--continues to be part of the 
clean energy economy of the future. So when we say all of the 
above, I mean, that is not a slogan. It is an investment this 
Administration has made over the past four years. So I actually 
would not agree with that comment, respectfully, Mr. 
Congressman.
    Chairman Lummis. I thank the gentleman from Texas and yield 
to another gentleman from Texas, Mr. Veasey, and it is Veasey, 
isn't it?
    Mr. Veasey. That is correct, Madam Chair.
    Chairman Lummis. You know, I had tee shirts made for my 
second campaign that said ``Lummis rhymes with hummus'' on them 
just because I got it to so much, so I suggest the tee shirt 
route, Mr. Veasey.
    Mr. Veasey. Yes.
    Chairman Lummis. The gentleman is recognized for four 
minutes.
    Mr. Veasey. I have done ``Veasey is easy'' before.
    And I wanted to ask Ms. Greenwald specifically if she could 
tell me a little bit more about her organization's work with 
important carbon capture and storage and reuse projects in Port 
Arthur as well as Pinwale, and for those of you that aren't 
from Texas, Port Arthur is a very important geographic area as 
it relates to energy and----
    Mr. Weber. And represented by the greatest Congressman in 
the world, I am just saying.
    Mr. Veasey. That would be Mr. Weber.
    Ms. Greenwald, please.
    Ms. Greenwald. Well, I am glad to talk about projects that 
are near and dear to both of your hearts. We were actually just 
in Port Arthur recently. We had a workshop for state and 
provincial officials from both the United States and Canada 
talking about CO<INF>2</INF> EOR and its relationship to carbon 
capture and storage, and while we were there we did a site 
visit to the Air Products facility in Port Arthur, Texas, and 
that is a hydrogen production facility that is doing carbon 
capture, and they are using their CO<INF>2</INF>. They are 
sending it into a pipeline to be used for CO<INF>2</INF> EOR. 
So it is a classic example of the kind of project that is 
really making a difference, moving ahead on carbon capture and 
also advancing our increasing U.S. oil production. So it is a 
great project. It is also getting DOE funding, so it is a huge 
DOE success as well. And so that has been a great project, and 
it just got up and running a few short months ago, and Air 
Products is also a member of our National Enhanced Oil Recovery 
Initiative group, and so they have been active in that as well.
    Mr. Veasey. Good, good. Let me ask you about CCS, and, you 
know, how would you compare the need to support CCS with the 
need to support other energy sources such as renewable energy 
or nuclear power? And I think particularly with renewable 
energy and that support going hand and hand because it is 
something that we really don't, you know, talk about enough, 
and if we want to have a serious all-of-the-above approach, I 
think that we obviously need to.
    Ms. Greenwald. You know, the way we think about this is, we 
think about a strategy. We might say all-of-the-above clean. We 
basically think that all of these technologies--nuclear power, 
renewables, efficiency, carbon capture and storage with gas or 
coal--all of the most promising technologies we should be 
working on both in the R&D level but also in deployment and 
encouraging them to be used more in the marketplace. So we 
recommend that we pursue a portfolio approach and make sure 
that we have a range of technologies that are available. For 
us, it is all about performance. If any particular fuel or 
technology can give the environmental performance that we need 
and the energy security benefits that we need, that is what we 
want to achieve. So we don't come out and say this is the best 
technology.
    As I said in my testimony, though, the reason we have been 
focusing on CO<INF>2</INF> EOR today and recently is that that 
is an example of a solution that a lot of people just don't 
know about, but we do support looking all across the board and 
making sure that we are placing bets on the most promising 
technologies so that they will be available for broader use in 
the marketplace and encouraging the use of the cleanest and 
most energy beneficial projects in the marketplace.
    Mr. Veasey. Thank you, Ms. Greenwald. I appreciate you 
answering those questions and I appreciate your work on these 
important energy and environmental issues. Thank you very much.
    Madam, I yield back the balance.
    Chairman Lummis. Thank you, Mr. Veasey, and the chair now 
recognizes the gentleman from Kentucky, Mr. Massey.
    Mr. Massey. Before I ask my question, I just want to say 
that I have ``friends of coal'' plates on my car, and my car 
truly is a friend of coal. It got me here on time today because 
it is powered with coal. It is an electric car, and it is 
charged by coal power. So I am very excited about coal as an 
abundant resource here in the United States because it gives us 
the opportunity to have energy independence and releases us 
from some of these foreign entanglements. So I am very troubled 
by what looks like the Administration's bias against coal, and 
I have been told by the engineers in my district, they just 
brought online in 2011 a super critical boiler unit. It is a 
state-of-the-art coal-fired facility at the Trimble County 
station, but they told me the other day that even though this 
thing qualified for clean energy tax credits and whatnot two 
years ago, today it would be illegal to build. They wouldn't be 
able to build it because it doesn't comply with the 
Administration's rules that are going to be promulgated.
    Mr. Smith, could you tell me, is that correct? Would it be 
impossible to build a compliant coal station today without CCS 
technology?
    Mr. Smith. Well, thank you for the question, Congressman. I 
can't respond to the specific instance because I am not 
familiar with the plant or the details behind it, and----
    Mr. Massey. Would it be possible to build a coal plant 
without CCS technology that is compliant today?
    Mr. Smith. Again, we are not the regulatory agency so, I 
mean, I really can't answer questions that are specific to how 
the regulations operate. I can talk to the technology pathways 
that we are pursuing, our broad Administration goals, how we 
are working with EPA. I could address those points.
    Mr. Massey. Okay. Well, I will assume they were correct in 
stating that.
    Let me ask you a question then that maybe you can answer. I 
think we need to--because we are determining policy, we can't 
base it on opinions. I am an engineer, and I believe that 
without facts, all you have is an opinion. So I am looking for 
facts and numbers here today. If the Earth has warmed because 
of human activity, can you tell me what percentage of that 
warming was due to anthropogenic causes?
    Mr. Smith. Mr. Congressman, what I can say, you know, 
without getting into a detailed scientific discussion----
    Mr. Massey. I am just looking for a number like a 
percentage.
    Mr. Smith. What I can tell you is that we do believe the 
anthropogenic CO<INF>2</INF> production, anthropogenic 
greenhouse gas emissions are an important component of global 
warming and it is something that we do have to comprehensively 
address.
    Mr. Massey. That is an opinion. So let us take it into the 
realm of facts. What percent would you apply to anthropogenic 
causes?
    Mr. Smith. Again, Mr. Congressman, I am not going to go 
through a peer review of scientific studies, and to select a 
number, I can't say that it is comprehensively important. We 
could certainly provide your office with more detail.
    Mr. Massey. Well, I would love to see those facts, because 
every time somebody from the DOE comes here, we ask this 
question. We have never gotten an answer to that question.
    I do have another question that is based on math, and this 
is a little bit easier exercise. What is the percent cost 
increase in coal production, coal-produced electricity that you 
associate with CCS technology?
    Mr. Smith. Well, right now we are looking at three, I 
guess, separate tranches in the way that we think about the 
implementation of CO<INF>2</INF> technology.
    Mr. Massey. If it were ideally implemented, what would the 
additional costs be to a kilowatt-hour?
    Mr. Smith. Well, Mr. Congressman, it would depend on the 
state of the technology at the point of implementation.
    Mr. Massey. I think in your testimony notes, you said 
between 35 and 70 percent. Is that a good range?
    Mr. Smith. I think that would be a reasonable range.
    Mr. Massey. Okay. So let us say it is 50 percent, and if a 
middle-class family had a $200 electric bill in Kentucky, 50 
percent of $200 is what?
    Mr. Smith. That would be $100.
    Mr. Massey. Okay. So their electric bill would go from $200 
to $300, and in 12 months they would have another $1,200 
electric bill. Does the Administration--does the DOE care that 
this is going to push some people below the living standard and 
that more people may have to go on public assistance because of 
promulgating the carbon capture technology?
    Mr. Smith. The point that the--the position that the DOE 
takes on this is that these are technologies that are going to 
be critical to be developed. Our job is to make sure that they 
are done in a way that is most cost-effective, that minimizes 
the impact on consumers, that ensures that clean coal has a 
role in the clean energy economy of the future, ensures that we 
have energy security here in the United States, and that we 
have the maximum amount of energy diversity for families 
throughout the United States.
    Mr. Massey. But you wouldn't dispute those numbers?
    Mr. Smith. I would say that if we do not move forward on 
these technologies, that we are not going to have a pathway to 
ensure that coal is part of the clean energy economy of the 
future. This is work that we must do to ensure that we do keep 
this important energy source.
    Chairman Lummis. The gentleman's time is expired.
    Mr. Massey. Thank you very much. I yield back.
    Chairman Lummis. I am so sorry, Mr. Massie. The chair now 
recognizes the gentleman from California, Mr. Takano.
    Mr. Takano. Thank you, Madam Chair.
    Mr. Smith, I want to explore a little bit more about the 
competitiveness of coal vis-a-vis natural gas. Can you tell me 
the impact that the increased efficiency and the technology in 
terms of extracting natural gas have had on coal's 
competitiveness?
    Mr. Smith. Well, thanks for the question. It has had a 
pretty large impact. If we look at availability of natural gas 
and how it has changed over the past decade, you know, a couple 
data points. You know, I grew up in Fort Worth, Texas, as Mr. 
Veasey mentioned, the geographic mid center of the Barnett 
shale. When I grew up there, there was absolutely no gas 
production or very, very little, and now it has been an 
absolute boom. Prices for natural gas were, you know, creeping 
into the double digits at one point. They bottomed out at 
somewhere around $2 last year. And so as you have that large 
decrease in the price for natural gas, it makes--it brings 
another option for American consumers, and we think that is 
generally positive.
    Mr. Takano. I mean, would it be fair to say that the 
viability of natural gas has become a war on coal?
    Mr. Smith. I would----
    Mr. Takano. I am being a little facetious there. I am just 
saying that it seems like the market forces have more to do 
with coal's struggling than Administration policy.
    Mr. Smith. Markets have a lot to do with it, and it is also 
part of the rationale why we have to be working very closely 
with industry to make sure that we are working together to 
develop these technologies to make sure that coal remains 
relevant.
    Mr. Takano. Well, let us talk a little more about coal 
versus natural gas. I mean, what makes natural gas such a more 
compelling source of energy on the fossil fuel side?
    Mr. Smith. Well, I would dispute the, I guess, 
categorization of more compelling because we think that energy 
diversity is very important and that in all-of-the-above, we 
have to make sure that we are using all of our energy sources. 
But I would say that natural gas has the benefit of having half 
of the CO<INF>2</INF> impact, and right now it is much more 
affordable than it was just five years ago.
    Mr. Takano. Thank you for that. I mean, I don't mean to 
cast--so it just seems to me, just looking at the 
Administration's policies, that the expenditures that it is 
seeking to make to--it looks like it is trying to make coal 
competitive. I mean, I would characterize the Administration's 
policies as not a war on coal but an attempt to make coal 
competitive with other sources of energy so we have--because it 
is plentiful in our country. It is something in our back pocket 
that we can develop potentially in the future for energy 
independence.
    Mr. Smith. We believe that energy diversity is a very 
important part of the all-of-the-above strategy. Coal creates a 
lot of jobs, it creates a lot of economic benefits in those 
parts of the country in which coal production is important. We 
firmly believe that we are going--the clean energy economy of 
the future is going to be a carbon-constrained world, and the 
only way that we can ensure that there is a role for all of our 
energy sources, which is going to be good for our economy, good 
for our energy security, is to move forward with research and 
development to ensure that we are doing something about the 
problem that we have with coal, which is, it is a major emitter 
of CO<INF>2</INF>. That is the challenge that we have to rise 
to, and that is the heart of our collaboration with industry, 
to move forward on these technologies.
    Mr. Takano. So the way I--so I see--thank you for your 
comment. I think the policy of the Administration is really an 
attempt to be supportive of coal, to keep it as a viable source 
of energy in the future because it is so plentiful in our 
country. It will help us with energy independence, and it truly 
does contribute to the all-of-the-above strategy.
    Mr. Smith. I think that would be an accurate 
characterization of what our intent is.
    Mr. Takano. Thank you.
    Chairman Lummis. I thank the gentleman and yield four 
minutes to the gentleman from Texas, Mr. Weber.
    Mr. Weber. Thank you.
    Chris, good to see you. I haven't seen you since you were 
down in Port Arthur at the opening of that plant. You said in 
your conversation with Congressman Neugebauer that you would 
categorically say it is not true that the Administration was 
waging a war on coal, but let me talk about that very 
fundamental question of the future of coal in America as it 
relates to President Obama's policies.
    During his first campaign, the President famously said that 
his objective was to bankrupt anyone that tried to build a 
coal-fired power plant. Since that time, the President has 
worked hard to deny he was ``waging a war'' on coal. However, 
after the President announced he intends to aggressively pursue 
new climate regulations last month, in a moment of candor, one 
of his key advisors said, and I am quoting, ``Politically, the 
White House is hesitant to say they are having a war on coal. 
On the other hand, a war on coal is exactly what is needed.'' 
Now, that was one of the President's advisors.
    So my question to you, Chris, and I have got a list here 
for you, is what is the Administration doing? Is it much more 
important than what the President and advisors are saying? Do 
they say one thing and do another? And let me just say, 
consider this list of the recent pending regulations affecting 
coal. Number one: carbon regulations--I think my colleague down 
here, Mr. Massie, talked to you about it--on new coal power 
plants, carbon regulations on existing coal power plants, 
utility MACT with EPA estimated compliance costs of $10 
billion, the Cross State Air Pollution Rule, which I know you 
are familiar with, BACT, or Best Available Control Technology, 
rules for greenhouse gas emissions, particulate matter 
regulations, section 316(b) rule concerning cooling water 
intake, and the list goes on and on and on. Effluent limitation 
regulations costing between $200 million and $900 million per 
year, new EPA regional haze requirements, new EPA monitoring--
excuse me--mountaintop mining rules, Department of Interior 
stream buffer zone regulations, and forthcoming ozone 
regulations which are projected to be the most costly 
regulation in the history of the U.S. government, most recently 
estimated by not your agency but the EPA to cost $90 billion 
annually. And yet we say that the President's Administration, 
with all due respect to my colleague from California, says that 
the gas market has waged a war on coal. That is the free market 
and American entrepreneurs will take that free market and they 
will make that work. They will make that adjustment. Consumers 
will respond by buying those products. But it is a fact, in my 
opinion, that this Administration has a war on coal. In fact, 
there is a YouTube video out on him where he was campaigning 
and he said under his energy plan, electricity prices would of 
necessity skyrocket. And I am sorry, I am out of time.
    You say that your mission is to make sure that America has 
clean, affordable energy. You say the future is a carbon-
constrained world. But don't you think that given what I just 
said is happening, the only thing that is going to be 
constrained is America's economy and our world competitiveness?
    Mr. Smith. Well, thank you, Congressman. There is a lot 
there so I will try to comment, I guess, on the----
    Mr. Weber. You have got lots of time, 28 seconds.
    Mr. Smith. Okay. Great. Well, last month I saw you were 
down in Port Arthur in your district where we were doing a 
ribbon cutting for the Air Products project, which I think was 
mentioned by one of the panelists. I think that is the--I mean, 
we can talk about who said what in an unattributed article but 
if you look at what we have actually done, particularly here 
within the Department of Energy, particular our research and 
development projects, we are taking concrete actions to ensure 
that coal remains relevant. Market forces are going to do what 
they do. Certainly the emergence of natural gas has had a big 
impact on coal. The technological innovations around shale gas 
have pushed natural gas prices down. We think it is important 
that as we go forward that we are making the research, we are 
putting the research in place to ensure that coal does continue 
to have a role.
    Chairman Lummis. Thank you very much. I am sorry. The 
gentleman's time has expired.
    Mr. Weber. I yield back.
    Chairman Lummis. The chair now recognizes the gentleman 
from Texas, Mr. Hall, chairman emeritus of this Committee.
    Mr. Hall. Thank you, Madam Chairman, and thank you 
yesterday for your good questioning and answering of the EPA 
people here. I think you put them in their place properly.
    I want to just touch on the climate change research 
causation that was inquired. I think Mr. Smith quickly said yes 
when he thought that it was people that had caused it. 
Causation. I just--you know, we were told 12 years ago that it 
was going to be halfway or 12 feet up on the Statue of Liberty, 
and it is less than a foot up on the Statue of Liberty. All 
kinds of warnings and people coming before us being paid a lot 
to come here to testify that scared us to death. And just like 
going to the moon. We are going to go to the moon but we are 
not going to the moon until the people can go to the grocery 
store, and on global warming, we better well be aware that we 
are not getting any help from anybody hardly in the world on 
that. We are doing it ourselves, and for what little has been 
done, we don't know whether people caused it or not. We have 
spent $34 to $38 billion for the small steps that have been 
taken. I think before you answer yes to something like that, 
you ought to know the causation and what it has cost the 
taxpayers to get what little we have got there, and I hope the 
record will reflect that.
    Ms. Greenwald, I know you, and I have served with you and 
admired you always. I can't remember if you were a Republican 
or a Democrat, though, when you were here.
    Ms. Greenwald. Do I have to say?
    Mr. Hall. No, you don't have to. I just remember that we 
worked on the Clean Air Act Amendments and the Energy Policy 
Act, and since then we passed another landmark energy policy, 
2005 Energy Policy Act, and you have seen the development of 
new technologies in your position. Rather than government 
mandates, what are the most effective methods of advancing 
energy technologies and efficiencies when we have a President 
Obama with his mandates, and he has not just got a war on coal, 
he has a war on energy. Could you give me some kind of an 
answer to that?
    Ms. Greenwald. Well, we believe that to get clean energy 
sources and energy efficiency into the marketplace requires a 
combination of policy and making sure that the market can work. 
So that is why we advocate for flexible policies and incentives 
so that you can set targets and requirements, but you leave to 
the private sector as much as possible the ability to make 
choices so that they pick the best technologies that can meet 
your environmental----
    Mr. Hall. We need to be aware of it and abreast of it and 
never forget it and looking at it every day, but we need to be 
reasonable about what we have to spend with no help from people 
that ought to be assisting us. Have you answered my question? I 
think you have.
    I will use the rest of my time. I have about 37 more 
seconds to go here. I am a coal--I am from Texas and I am a 
fossil fuels and oil and gas guy but I have seen coal operation 
make significant investments and progress in advancing clean 
air emission controls and employing advanced technology, so I 
am heavy on coal and I think that we really--this is an 
important meeting, and I thank all of you for your service. I 
yield back my five, four, three, two, one, time. Thank you, 
Madam Chairman. Thank you for your good work yesterday.
    Chairman Lummis. Thank you very much.
    We made it. The votes have been called on the Floor of the 
House, and everyone was very cooperative so everyone got to 
participate in this hearing today. We thank the witnesses so 
much for your valuable testimony and the Members for their 
questions. Members of the Committee may have additional 
questions for you, and we will ask you to respond to those in 
writing. The record will remain open for two weeks for 
additional comments and written questions from Members. We will 
look forward to your responses to those questions that you may 
be receiving shortly.
    Before we adjourn, I ask unanimous consent to enter into 
the record two items. First, a letter signed by 23 Members of 
Congress, including me, to President Obama on July 22nd 
expressing our concern about the implementation of the New 
Source Performance Standards addressing greenhouse gas 
emissions for new and existing power plants. And secondly, two 
charts from DOE's International Energy Outlook, which was just 
released this morning showing the forecast for global coal 
demand, which is projected to increase by 39 percent in the 
next 20 years. Without objection, so ordered.
    [The information appears in Appendix II]
    Chairman Lummis. Obviously, those charts indicate that the 
subject of today's hearing is tremendously relevant, and the 
challenges exist for the technology that you espoused in your 
testimony, Mr. Collins. Ms. Greenwald. We look forward to your 
continued work, Mr. Yamagata, as well as the Department of 
Energy's continued work on fossil fuel technologies.
    The witnesses are excused with our deep gratitude, and this 
hearing is adjourned.
    [Whereupon, at 10:45 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions

Responses by Mr. Chris Smith

[GRAPHIC] [TIFF OMITTED] 82223.091


Responses by Mr. Ben Yamagata
[GRAPHIC] [TIFF OMITTED] 82223.107


Responses by Mr. Don Collins

[GRAPHIC] [TIFF OMITTED] 82223.112


                              Appendix II

                              ----------                              


                   Additional Material for the Record




                   Submitted letter for the record by
             Subcommittee on Energy Chairman Cynthia Lummis

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Department of Energy's International Energy Outlook charts
          submitted for the record by Chairman Cynthia Lummis

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
